HHS/OIG, Audit -"End State Renal Disease Pricing Errors at Independent Facilities - AdminaStar Federal, Inc., Indianapolis, Indiana,"(A-05-03-00053)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"End State Renal Disease Pricing Errors at Independent Facilities - AdminaStar Federal, Inc., Indianapolis, Indiana," (A-05-03-00053)
November 20, 2003
Complete
Text of Report is available in PDF format (164 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of Medicare overpayments made to independent End Stage Renal Disease
(ESRD) providers resulting from AdminaStar Federal’s reimbursement of supplies used to administer separately billable
injectable drugs.  AdminaStar Federal overpaid independent ESRD facilities as much as $407,300 relative to our universe
of 6,756 ESRD billable lines of service processed during the period January 1, 1999 through December 31, 2001.  Independent
ESRD facilities are limited to a $0.50 supply reimbursement per administration of separately billable drugs.  All
of the 6,756 billed lines in our universe were amounts that exceeded this mandated limit.  We recommended that AdminaStar
recalculate the Medicare reimbursement for billed services in our universe and initiate recovery actions on identified
overpayments, and strengthen their procedures for loading HCPCS codes into the claims processing system.  AdminaStar
concurred with our finding and recommendations.